No. 20-365

 

 

IN THE

Supreme Court of the United States

JACK DANIEL’S PROPERTIES, INC.,

Petitioner,
v.

VIP PRODUCTS LLC,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for The Ninth Circuit

BRIEF OF AMICI CURIAE
ALCOHOL BEVERAGE INDUSTRY
ASSOCIATIONS SUPPORTING PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,272 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 19, 2020.

Uf

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
